CERTIFICATE OF SERVICE
NO. TBD
Multiventas y Servicios Inc. et al.
Petitioner(s)
v.
Oriental Bank
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
MULTIVENTAS Y SERVICIOS INC. ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true
and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Alfredo Fernández Martínez
Pedro A. Hernández Freire
Delgado & Fernández, LLC
P.O. Box 11750
San Juan, PR 00910-1750
afernandez@delgadofernandez.com
phernandez@delgadofernandez.com
Counsel for Oriental Bank

Sonnya Isabel Ramos Zeno
Supreme Court Clerk
Puerto Rico Tribunal Supremo
P.O. Box 9022392
San Juan, PR 00902-2392
Estado Libre Asociado de Puerto Rico
Tribunal Supremo

Judge Ramirez Nazario
Presiding Judge
Puerto Rico Tribunal de Apelaciones
P.O. Box 191067
San Juan, PR 00919-1067
Estado Libre Asociado de Puerto Rico
Tribunal de Apelaciones

Annette Prats Palerm
Superior Court Judge
Puerto Rico Tribunal de Primera Instancia
Sala Superior de Caguas
P.O. Box 491
San Juan, PR 00726-0491
Estado Libre Asociado de Puerto Rico
Tribunal de Primera Instancia

Lucas DeDeus

March 3, 2020
SCP Tracking: La Fosse-P.O. Box 192053-Cover White

